U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


PATENT AND TRADEMARK OFFICE

             Office of Patent Publications:
High Inventory, Late Patent Deliveries, and
 Patent Printing Issues Must Be Addressed

     Audit Report No. BTD-10996-9-0001 / September 1999




        Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                 Audit Report BTD-10996
Office of Inspector General                                                                                         September 1999

                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

I.        OPP Struggling to Process and Publish High Inventory of Patents . . . . . . . . . . . . . . . . . . 5

                     A.         Increased productivity has not reduced inventory . . . . . . . . . . . . . . . . . . . 5
                     B.         Efforts to reduce inventory have overburdened
                                contractor’s data compilation operations . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                     C.         Printing contractor’s operations have been
                                delayed due to late patent deliveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                     D.         OPP initiatives may decrease publishing time
                                but not meet PTO cycle time goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                     E.         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                     F.         PTO Response to Draft Report and OIG Analysis . . . . . . . . . . . . . . . . . . 10

II        PTO Should Streamline Dissemination of Patent Products
          and Pursue Oversight Responsibilities for Printing Contract . . . . . . . . . . . . . . . . . . . . . . 14

                     A.         PTO should disseminate patent products on Internet
                                and survey customers on elimination of printed products . . . . . . . . . . . . 14
                     B.         Services provided by GPO as contacting agent
                                could be performed more efficiently by PTO . . . . . . . . . . . . . . . . . . . . . . 16
                     C.         OPP and GPO did not adequately review printer’s
                                claims resulting from print tape delivery problems . . . . . . . . . . . . . . . . . 17
                     D.         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                     E.         PTO Response to Draft Report and OIG Analysis . . . . . . . . . . . . . . . . . . 19

APPENDIX: PTO’s Complete Response to Draft Audit Report
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

                                  EXECUTIVE SUMMARY

The Office of Inspector General has completed its performance audit of the Office of Patent
Publications (OPP) at the Patent and Trademark Office (PTO). After patent applications have
been allowed by examiners, they are sent to OPP for final processing. OPP oversees the
complex process of image-capturing, printing, publishing, and disseminating patents around the
world. OPP also produces related patent products for the benefit of PTO and its customers,
including weekly issues of the Official Gazette, the official journal of issued patents and PTO
notices, and the patent image file used to support the Automated Patent System. OPP relies
significantly on several contractors for various services and contractors account for almost 80
percent of OPP’s $51 million budget. OPP is changing the publication process to become more
efficient, reduce publishing time frames, and help PTO reduce the time needed to issue patents.

An increasing workload is causing a high inventory of pending application files. The
number of patents awaiting final processing in OPP grew by 51 percent from FY 1993 to FY
1998, in spite of a virtually equal increase in the number of patents actually published. We
found that:

l      Despite increased productivity, a large inventory of patents awaiting final processing and
       publication by OPP still exists because (1) the total number of patents allowed by
       examiners has increased each year, (2) patents have not been processed by OPP until
       issue fees were paid by the applicant, and (3) OPP’s production capacity has been
       limited (see page 5).

l      OPP’s efforts to reduce the inventory have overburdened data compilation activities. As
       a result of sustained increases in the size of the weekly issue of the Official Gazette, OPP
       has not been able to deliver, in a timely fashion, products to the database contractor for
       processing (see page 7).

l      Late deliveries of processed patents to the printing contractor have delayed printing
       operations. During FY 1998, instead of receiving the entire weekly issue of patents on
       one or two magnetic tapes, as stipulated in the contract, the printer had to process three
       tapes before printing an issue. Recent data provided by PTO indicates some
       improvements in this area (see page 8).

l      OPP and contractor initiatives to improve the process may decrease publishing time, but
       still may not meet PTO’s cycle time goals (see page 9).




                                                 i
U.S. Department of Commerce                                                 Audit Report BTD-10996
Office of Inspector General                                                         September 1999

On page 10, we recommend that the Acting Assistant Secretary and Acting Assistant
Commissioner of Patents and Trademarks establish a plan to reduce the inventory of patents and
meet PTO goals for publishing within four weeks by:

1.     Assessing the effect on cycle time of processing files for publication before fee receipt
       and changing the new process as needed;

2.     Processing patents more rapidly for timely delivery to the database contractor;

3.     Assisting the database and printing contractors in meeting their contractual obligations
       in a timely manner; and

4.     Considering, as needed, further consolidation of the database compilation and printing
       processes.

PTO should streamline patent dissemination and pursue the oversight responsibilities for
the printing contract. PTO has been designated by the Vice President as a “High Impact
Agency” and directed to focus on the use of information technology and customer service.
Accordingly, PTO’s “Reinvention Goals for 2000" include a transition to a paperless patent
publishing process by FY 2003. Information technology enhancements enable OPP to publish
patents more efficiently and allow PTO to assume greater responsibilities for printing patents
and providing patent documents electronically to the patent community. However, we found
that:

l      PTO spends an average of $1.5 million annually to print hard copies of the Official
       Gazette, its official journal of patents, and produces microfilm products of published
       patents and printed copies of patents, despite the increasing availability of this
       information on PTO’s Internet website (see page 14).

l      By law, the Government Printing Office (GPO) functions as a contracting agent for OPP
       for the procurement of its printing services, but PTO assured us that GPO does not
       provide procurement or contracting services that PTO cannot perform more efficiently
       in-house. Since FY 1992, OPP has paid $1,384,293, or an average of $230,072
       annually, in “handling fees” to GPO, that PTO could provide at no cost with existing
       resources (see page 16).

l      GPO and OPP approved the printing contractor’s claims of $218,903 for overtime and
       other expenses without adequately substantiating the claims. OPP also did not involve
       the onsite quality control specialist in key discussions with GPO and the printing
       contractor (see page 17).



                                                ii
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

On page 18, we recommend that the Acting Assistant Secretary and Acting Commissioner of
Patents and Trademarks:

1.     By the end of FY 2003, disseminate all patent-related products, including all elements of
       the Official Gazette, on the Internet. Initiate customer surveys to determine which
       printed patent products can be eliminated to reduce costs when PTO fully implements a
       paperless patent dissemination process.

2.     Consider pursuing a waiver from the Joint Committee on Printing, or the necessary
       legislation, to independently solicit and efficiently manage its own printing contract.

3.     Request GPO to review the basis for the printing contractor’s future claims of expenses
       incurred as a result of late patent tape deliveries.

4.     Increase the role of the onsite quality assurance specialist in the oversight of the database
       and printing contractors.

                                              *****

In its response to our draft report, PTO agreed with our recommendations and described a
number of measures it is taking to implement the recommendations. According to PTO, the new
process for publishing patents, instituted in April 1999, will ultimately increase production
capacity to the extent that the cycle time for publishing patents will be reduced by 10 weeks.
But the database contractor encountered significant startup problems, so the initial goals for the
increase in production capacity and reduction in cycle time have not yet been met. Significant
progress has been made by increasing issue sizes to an average level of 3300 patents per week
over the last 8 weeks. PTO and the database contractor have developed a new and more realistic
plan to reach the cycle time goal by March 2000. Other measures PTO is taking or will take to
meet our recommendations include: (1) eliminating delays in the deliveries of magnetic tapes to
the database contractor; (2) meeting weekly with the database contractor to resolve problems
and reassess production capabilities; (3) initiating a customer survey to determine which patent
products can be eliminated when PTO implements a paperless patent dissemination process; and
(4) giving the onsite quality assurance specialist a significantly enhanced role in the oversight of
the two contractors.

We have reiterated our recommendations, with minor changes, in the final report. Summaries of
PTO’s response for each set of findings and recommendations begin on pages 10 and 19, and
we have attached PTO’s complete response to the report.




                                                iii
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

                                       INTRODUCTION

The Office of Inspector General has completed its performance audit of the Office of Patent
Publications (OPP) at the Patent and Trademark Office (PTO). After patent applications have
been allowed by examiners, they are sent to OPP, which oversees the complex process of
capturing, printing, publishing, and disseminating them around the world.

Performance audits are objective and systematic examinations of evidence to independently
assess an organization, program, activity, or function to provide information to improve
accountability and facilitate decision making by parties with responsibility to oversee or initiate
corrective action. By identifying systemic strengths and weaknesses, the OIG will help the
Department’s managers implement more efficient and effective operations to better serve the
Department’s customers.




An OPP employee affixes PTO’s
official seal to a published patent




                              PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to (1) identify key causes of the inventory of patents in the post-
examination process, (2) review initiatives to reduce publishing pendency and the extent that
they are achieving desired results, (3) review selected aspects of the printing process, and (4)
determine whether OPP is complying with significant laws and regulations applicable to the
post-examination process. We reviewed:

l      35 U.S.C. § 11 and 44 U.S.C. § 1137-1138;
l      the publication process, including several related flowcharts;
l      organizational charts and position descriptions for key personnel;



                                                 1
U.S. Department of Commerce                                                Audit Report BTD-10996
Office of Inspector General                                                        September 1999

l      written agreements with the database and printing contractors;
l      historical workload and production data;
l      correspondence between OPP and contractors; and
l      various documentation related to the publishing process.

We also interviewed:

l      the OPP director and deputy director;
l      OPP managers including the publication manager, supervisory quality control specialist,
       and supervisory program analyst;
l      the contracting officer’s technical representative, the supervisory legal instrument
       examiner, and the quality assurance specialist for field operations;
l      PTO officials, including the Deputy Assistant Commissioner for Patent Process Services,
       the Comptroller and Deputy Chief Financial Officer, the Administrator for Information
       Dissemination; and representatives from the Office of Procurement;
l      officials at two contractors involved providing critical services to OPP; and
l      contracting officers at the Government Printing Office (GPO).

We assessed OPP’s compliance with applicable laws and regulations, including sections of
Titles 35 and 44 of the United States Code, and concluded that it acted in accordance with these
laws. We also reviewed OPP’s compliance with internal controls over contractors’ costs and
performance and found a lack of compliance, as reported below.

We conducted our fieldwork from August 1998 through January1999 at PTO’s headquarters in
Crystal City, Virginia. We also made site visits to contractors in both Horsham and Claysburg,
Pennsylvania. We did not verify the reliability of computer-based data cited in the report,
because such tests were outside the scope of our audit. With that exception, our review was
conducted in accordance with generally accepted government auditing standards and under the
authority of the Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated May 22, 1980.

                                       BACKGROUND

OPP is led by a Director, who reports to PTO’s Deputy Assistant Commissioner for Patent
Process Services. At the end of FY1998, OPP had 123 FTEs and an operating budget of
$51.4 million. OPP, in its post-examination process, ensures the production of individual patent
documents and several related products for the benefit of PTO and its customers, including the
weekly issue of the Official Gazette, the official journal of issued patents and PTO notices; the
patent image file used to support the Automated Patent System; and microfilm conversion files
used to make microfilm copies of patents.



                                               2
U.S. Department of Commerce                                                                Audit Report BTD-10996
Office of Inspector General                                                                        September 1999




                                                                             Allowed patent files await
                                                                              processing by OPP staff




From FY 1993 to FY 1997, the inventory of patents awaiting final processing in OPP grew by
59 percent, from 62,183 to 98,609, before declining to 93,923 in FY 1998. In December 1997,
the OIG reported the existence of a high inventory of patents in the post-examination area.1

Cycle time2 analysis showed that in FY 1998, PTO needed an average of 16.9 months to process
a patent. Within that time, OPP should take 5 to 6 months from the time an allowed patent
arrives in OPP until it is issued. This was due in large part to the 90 days granted to inventors to
pay the issue fee. The publishing schedule dictates that OPP publish a patent 14 weeks after it
receives the issue fee. PTO’s FY 1999 goal is to reduce cycle time to 12 months or less for 75
percent of all inventions. OPP has been charged, as part of this goal, to reduce the cycle time
needed to publish a patent to 4 weeks, as further discussed below.

Every week OPP publishes a set of patents in the Official Gazette.3 The average issue size did
not vary much between FY 1995 through FY 1997, averaging 2,215 in FY 1995, 2,268 in FY
1996, and 2,348 in FY 1997. In FY 1998, OPP published 157,824 patents, an average of 3,035
patents per issue. Issue sizes in FY 1999 were averaging over 3,200 patents during our audit.
Patents are processed for about 10 issues simultaneously. Consequently, at any one time, there
are an estimated 30,000 to 40,000 patent files in various stages of the process.




         1
             PTO Business Analysis, Survey Report No. PTD-10381-8-0001, page 18.
         2
           Cycle time is PTO’s measure of the time needed to process an allowed patent from the application to the
publication phase.
         3
            An issue is scheduled for each Tuesday of the year and contains patents, reexamination certificates, and
statutory invention registrations (which enable inventors to prevent others from patenting a specific invention),
plus the patent data, related indices, and other printed materials such as PTO Notices.

                                                         3
U.S. Department of Commerce                                                 Audit Report BTD-10996
Office of Inspector General                                                         September 1999

In order to publish patents, OPP relies significantly on contractors that provide the following
services:

l      data capture--converting allowed patent application paper files into electronic form;
l      printing--imaging, binding, packaging, and distributing to customers internally,
       nationally, and worldwide;
l      color reproduction of color/part-color photoprints; and
l      management and processing of allowed patents--reviewing, assembling, and mailing of
       patent grants and certificates.

The most technical, and costly, aspects of the publishing process are performed by two
contractors, and weekly issue sizes are largely based on their production capabilities. The first
provides data compilation services (the “database contractor”). The second is mainly
responsible for printing the patents (the “printing contractor”). OPP recompeted its database
contract in September 1998, and the database contractor successfully retained it. As with the
prior contract, the contract period covers one base year and four option years. OPP procured the
printing contractor’s services through GPO, which acts as a contracting agent when procuring
printing services under Title 44 of the United States Code. The printing contractor’s current
contract with GPO took effect in January 1997.




                                                4
U.S. Department of Commerce                                                   Audit Report BTD-10996
Office of Inspector General                                                           September 1999

                          FINDINGS AND RECOMMENDATIONS

I.     OPP Struggling to Process and Publish High Inventory of Patents

OPP is struggling to publish patents at a level commensurate with the constantly increasing
number of patents allowed by examiners. As a result, we found that (1) despite increased
productivity, a large inventory of patents awaiting final processing and publication still exists,
(2) OPP’s efforts to reduce the inventory have overburdened contractor’s data compilation
activities, (3) late patent deliveries have disrupted printing operations, and (4) OPP initiatives
will decrease publishing time but might not meet PTO cycle time goals.

A.     Increased productivity has not reduced inventory

The number of patents awaiting final processing in OPP has grown by 51 percent from 62,183
in FY 1993 to 93,923 in FY 1998, an average increase of 6,348 per year. The inventory has
grown in spite of a 47 percent increase in the number of patents published annually since FY
1993 (see Figure 1). OPP has a large inventory of patents awaiting processing because (1) the
total number of patents allowed by examiners has increased each year, (2) patents have not been
processed by OPP until issue fees were paid, and (3) OPP’s production capacity has been
limited. OPP is taking action to reduce publishing times so that inventors do not wait longer to
receive their patents.

Inventory

The total number of patents allowed by
the patent examining corps has
increased each year from about
116,151 in FY 1993 to158,259 in FY
1998, a 36 percent increase. Between
FY 1996 and FY 1998, total allowed
patents grew annually by an average of
9.8 percent. OPP anticipates continued
increases because, as we previously
reported, the size of the patent corps is




                                                 5
U.S. Department of Commerce                                                                 Audit Report BTD-10996
Office of Inspector General                                                                         September 1999

growing.4 Last year PTO hired 725 new examiners and it plans to hire another 700 in 1999.
This will directly impact OPP’s workload and production demands on its contractors. For
example, using FY 1998 patent production statistics, a 25 percent increase in the number of
examiners and corresponding increase in allowed patents would add over 39,000 patents to the
post-examination stage.

Issue Fee

Through FY 1998, about 50 percent of OPP’s ending inventory each year consisted of patents
that it would not publish because the applicant had not paid the issue fee.5 When the applicant
pays the fee, the patent files are retrieved and then sorted for processing. At the end of FY 1998,
OPP was awaiting the issue fee for 43,870 patents.

Beginning with the patents intended for the April 13, 1999 issue of the Official Gazette, OPP
was scheduled to process allowed patents prior to receipt of payment. Under the new process,
patent files would be processed by the database contractor immediately after the patent has been
allowed, instead of waiting until fee payment, drawings, or other requirements have been
submitted to complete the application. This would enhance its ability to build weekly issues,
better manage its workload, and dramatically reduce publishing time.

Production Capacity

In response to the growing inventory, OPP increased its production significantly in FY 1998
and published a record 157,824 patents. In FY 1999, OPP plans to issue 201,359 patents by
increasing the number of patents per issue from an average of 3,232 to 5,770 for 13 weeks
beginning on April 13, 1999. As a result, OPP will issue an estimated 2,538 extra patents every
week for a total of 32,994 additional patents.

OPP officials were not certain whether OPP can maintain this level of total production in future
years. They provided documentation showing the number of patents per FTE (including
contractor personnel) increased 38 percent, from 900 in FY 1995 to 1,239 in FY 1998. Their
analysis concluded that it is unrealistic to expect similar increases in the future. Without
increased production to match the continuing increases in the number of allowed patents, we do
not believe that OPP can reduce its inventory and maintain it at a reasonable level. As of this
report, we are not certain whether OPP and its contractors, despite their best intentions, can


         4
           Board of Patent Appeals and Interferences: High Inventory and Inadequate Monitoring Threaten
Effectiveness of Appeal Process, Report No. BTD-10628-8-0001, September 1998, page 4.
         5
          The issue fee is established by law to pay the costs of securing a patent grant, conducting a
reexamination due to a question of patentability, or obtaining a statutory invention registration (SIR) certificate.

                                                          6
U.S. Department of Commerce                                                Audit Report BTD-10996
Office of Inspector General                                                        September 1999

publish enough patent application files to prevent the inventory from reaching unprecedented
levels and to ensure that patents are published within four weeks.

At our exit conference, PTO officials explained that the new process will enable OPP to increase
issue sizes to meet production demands, but acknowledged that budget constraints could hinder
OPP’s publishing capability. In order to justify program increases for budgetary purposes to
address the production capacity, PTO needs to establish a plan to reduce the inventory of
pending applications to meet publishing goals.

B.     Efforts to reduce inventory have overburdened
       contractor’s data compilation operations

OPP’s efforts to reduce its inventory of patents waiting to be published have negatively
impacted the production schedule and operations of its database and printing contractors. First,
OPP did not give the database contractor sufficient warning to facilitate sustained increases in
issue sizes. Second, OPP has not delivered patents timely to the database contractor, who in
turn cannot provide the magnetic tapes containing patents to the printing contractor. OPP needs
to process patents more rapidly to ensure that database and printing contractors are given
sufficient notice to prepare for sustained increases in Official Gazette issue sizes.

The extent to which OPP overwhelmed the database contractor’s production capacity can be
traced to the increase in the number of allowed patent applications in FY 1997. That year, OPP
established a production schedule and informed the database contractor that it planned to issue
about 113,000 patents based on the patent corps’ projection of allowed files. But OPP
unexpectedly received 18,000 more allowed patents, a 16 percent increase. OPP was unable to
expeditiously process them, and by the end of the fiscal year its inventory had grown to 98,609
patents. Hence, OPP officials felt they had to increase issue sizes in FY 1998 to reduce the
inventory.

The average issue size grew from 2,348 in FY 1997, to 3,035 during FY 1998, to 3,232 patents
through March. Beginning on April 13, 1999, OPP was scheduled to increase issue sizes to
5,770 patents for 2 to 3 months. But OPP has not identified, organized, and prepared enough
patents for timely delivery to the database contractor. As a result, in FY 1998 OPP began to
close issues late and deliver fewer files by key deadlines to the database contractor. Because
OPP was late sending the patents to the database contractor, it was late in sending magnetic
tapes of patents to the printing contractor.

The president of the database company told us that the company has made every effort to meet
OPP’s production demands and were able to handle modest increases in weekly issues.
However, he stated that the 38 percent increase in issue size was beyond manageable levels and
could not be controlled with overtime and hiring/training of new personnel. The database
contractor’s own stringent quality standards, and other technical matters involved in assembling

                                               7
U.S. Department of Commerce                                                   Audit Report BTD-10996
Office of Inspector General                                                           September 1999

the tapes, pose limitations on how many employees the database contractor can hire at one time.
We reviewed production data provided by the database contractor and it appears that its recent
recruitment efforts are helping it catch up to current demands.

C.     Printing contractor’s operations have been
       delayed due to late patent deliveries

The printing contractor’s contract states that it is to receive the entire weekly issue from the
database contractor on one magnetic tape 14 days before the issue date and a second tape with
corrected patents 9 days prior to issue. Receiving a high percentage of patents on the first tape
is critical to meet the printing schedule. As a result of the delay in OPP’s transmitting of patents
to the database contractor, it was forced to generate not just two, but three tapes for the printing
contractor during FY 1998. In FY 1998, the percentage of patents received on the first tape
declined considerably, averaging 17.5 percent between the June 16 and September 29 issues.
Figure 2 illustrates the problems described by the printing contractor.




According to the printing contractor, it became apparent in FY 1997 that OPP and the database
contractor were not delivering patents timely. In FY 1998, the printing contractor worked
diligently to meet OPP’s production demands until it could no longer do so without incurring
additional costs. But the printing contractor’s costs began to increase as a result of fluctuations
among weekly issue sizes and the delays in sending the tapes. The printing contractor requested
a contract modification for additional costs resulting from the delays, which GPO approved in
October 1998. Our review of the modification decision is discussed below.


                                                 8
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

OPP and officials of the database contractor expressed optimism that they are correcting the
timeliness issue. Recent data shows that OPP is delivering patents to the database contractor
more timely and the percentage of patents on the first tape is increasing (e.g., the database
contractor delivered an average of 44 percent of the patents on the first tape for the first three
December 1998 issues, up sharply from the 17.5% level in June 1998). Database contractor
officials believe that production capacity has increased to meet current production demands
because of recent recruitment and training efforts. At the conclusion of our audit, OPP was also
seeking ways to improve patent deliveries by changing the production schedule to permit the
delivery of one tape to the printing contractor.

D.     OPP initiatives may decrease publishing time
       but not meet PTO cycle time goals

The Government Performance and Results Act of 1993 specifies that an agency’s annual
performance goals should define an objective and measurable target level of performance for
each program activity. Reducing cycle time remains among PTO’s highest priorities. In its
FY 1999 Corporate Plan, PTO set a goal of reducing cycle time to 12 months for 75 percent of
all inventions. Accordingly, senior patent management directed OPP to reduce the time it takes
to publish a patent from a normal processing time of 14 weeks to 4 weeks.

Shortly after PTO decided in September 1998 to renew the database contract, OPP notified the
database contractor of PTO management’s decision to change the publishing process and
significantly reduce publishing times by processing patents before the fee is received. OPP and
the database contractor had to accelerate efforts, rapidly develop new procedures, and test the
new process. At the conclusion of our fieldwork, it was too soon to determine whether OPP will
meet PTO cycle time goals in FY 1999.

The new process might dramatically reduce publishing time to the desired 4-week level.
According to OPP officials, successful implementation of the reengineered process hinges on
several factors, including whether (1) the database contractor assumes more responsibilities,
including physical management of patent files, (2) OPP maintains control and accountability for
files returned to OPP from the database contractor for data questions, (3) PTO completes
necessary programming upgrades to the Patent Application Locating and Monitoring on time,
(4) exceptions to the normal examination process will be allowed, and (5) short-term increases
in issue sizes create additional bottlenecks within OPP and the database contractor. Several of
these were outside the scope of our audit, so we did not assess their impact.

Both OPP and the database contractor officials are confident that the new publishing process
will be implemented, but less certain that they can maintain the planned production schedule.
Officials of the database contractor told us they cannot guarantee they can meet all of OPP’s
production demands. PTO may need to consider other measures to further consolidate the
database compilation and printing process.

                                                9
U.S. Department of Commerce                                                   Audit Report BTD-10996
Office of Inspector General                                                           September 1999

E.     Recommendations

We recommend that the Acting Assistant Secretary of Commerce and Acting Commissioner of
Patents and Trademarks establish a plan to reduce the inventory of patents and meet PTO goals
for publishing within four weeks by:

1.     Assessing the effect on cycle time of processing files for publication before fee receipt
       and changing the new process as needed;

2.     Processing patents more rapidly for timely delivery to the database contractor;

3.     Assisting the database and printing contractors in meeting their contractual obligations
       in a timely manner; and

4.     Considering, as needed, further consolidation of the database compilation and printing
       processes.

F.     PTO Response to Draft Report and OIG Analysis

In its reply to our draft report, PTO agreed to, or has taken action consistent with, all of our
recommendations. According to PTO, the new process for publishing patents, instituted in
April 1999, will ultimately increase production capacity to the extent that the cycle time for
publishing patents will be reduced by 10 weeks, to four weeks after issue fee payment. The new
process entails sending all patents to the database contractor as soon as the examiner allows the
case. The contractor takes approximately three weeks to capture the patent file in electronic
form. The file is then stored until the issue fee is paid. During this storage, any post-allowance
papers and new drawings are processed. Once the fee has been paid, any changes and
information from the issue fee form are captured. The patents are then built into a weekly issue
of the Official Gazette.

However, the database contractor encountered significant startup problems in actions such as
such as substantially changing its automated tracking systems; procuring and renovating new
space; meeting new requirements in the new contract issued in September 1998; and hiring and
training a sufficient number of staff. So the initial goals for the increase in production capacity
and reduction in cycle time have not yet been met.

A summary of PTO’s position on each recommendation as stated in the draft report is followed
by OIG comments. A copy of PTO’s complete response is attached.




                                                10
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

Recommendation #1:

Assessing the effect on cycle time of processing files for publication before fee receipt and
changing the new process as needed.

PTO Response:

While both OPP and the database contractor now realize that the original plan to reach the cycle
time goal was overly optimistic, considerable progress has been made towards the production
capacity to achieve this goal. New space has been procured and final renovations are being
completed. A net gain of 191 database contractor employees are finishing the final stages of
training, and many are starting to be productive to the database contractor’s production
capabilities. A number of software programs problems have been resolved and automation
glitches are now at a minimum. Significant progress has been made by the database contractor,
increasing issue sizes to an average level of over 3300 issued patents per week over the last 8
weeks.

OPP and the database contractor have recently reassessed the steps necessary to process patents
in the time necessary to publish them within four weeks. A new issue plan with more realistic
issue sizes has been developed. The database contractor has assured the PTO that they are
confident that these issue sizes can be met. This plan includes gradually working towards issue
sizes of 4500 patents a week by end of the calendar year. According to this plan, the PTO
would reach its goal of issuing a patent 4 weeks after issue fee payment by March of 2000,
which would delay reaching PTO’s stated cycle time goals by six months.

OIG Comments:

We commend PTO and OPP for taking joint action with the database contractor to increase
production capacity and reduce the cycle time for patent publishing. We concur with PTO’s
response to our recommendation.

Recommendation #2:

Processing patents more rapidly for timely delivery to the database contractor.

PTO Response:

With the new process of delivering patent applications for earlier data capture, OPP has better
control over this process. While OPP initially fell behind in processing patent applications for
delivery to the database contractor under the new process, it is now current with timely
deliveries. To date a total of 102,500 patent applications have been delivered. The goal for


                                                11
U.S. Department of Commerce                                                Audit Report BTD-10996
Office of Inspector General                                                        September 1999

FY99 is to deliver 136,855 patent applications. This represents a total delivery in FY1999 for
both the old and new process of 181,500 applications.

OIG Comments:

We commend PTO and OPP for eliminating delays in the deliveries to the database contractor.
We concur with PTO’s response to our recommendation.

Recommendation #3:

Assisting the database and printing contractors in meeting their contractual obligations in a
timely manner.

PTO Response:

OPP staff has been holding weekly meetings with the database contractor to resolve problems
that have arisen. OPP management has held several meetings with the database contractor
focusing on developing process improvements and reassessing production capabilities. One
important aspect of recent meetings was to adhere to production schedules so all contractors are
able to meet their contractual obligations.

OIG Comments:

We concur with PTO’s response to our recommendation.

Recommendation #4:

Considering, as needed, further consolidation of the database compilation and printing
processes.

PTO Comments:

The PTO will make every effort to consolidate the publishing process. The recent legislation
that passed the House of Representative, HR 1907, has a provision that allows the PTO to enter
into printing contracts without regard to certain sections of Title 44. We are committed to find
and implement process improvements.




                                               12
U.S. Department of Commerce                                              Audit Report BTD-10996
Office of Inspector General                                                      September 1999

OIG Comments:

While we concur with PTO’s response to our recommendation, we urge PTO to consider
specific measures to meet the recommendation without regard to the prospects for passage of
HR 1907, in case it does not become law.




                                              13
U.S. Department of Commerce                                                        Audit Report BTD-10996
Office of Inspector General                                                                September 1999

II.    PTO Should Streamline Dissemination of Patent Products
       and Pursue Oversight Responsibilities for Printing Contract

Information technology enhancements enable PTO to publish patents more efficiently and pave
the way to providing patent documents electronically. PTO has begun to disseminate patent
information on the Internet, but could accelerate such dissemination and survey customers on
the continued need for printed patent products. We also found that OPP is not efficiently
serviced by GPO in its role as contracting officer for printing services and could independently
oversee those procurements. We are also concerned that GPO and OPP did not substantiate the
printing contractor’s cost claims prior to payment.

A.     PTO should disseminate patent products on Internet
       and survey customers on elimination of printed products

PTO spends an average of $1.5 million annually to print hard copies of the Official Gazette, its
official journal of patents, and produces microfilm products of published patents and copies of
patents, despite the increasing availability of this information on PTO’s Internet website. PTO
has been designated by the Vice President as a “High Impact Agency” because it has
considerable interaction with the public and business. These agencies have been directed to
focus on the use of information technology and customer service. Accordingly, PTO’s
“Reinvention Goals for 2000" refer to a transition to a paperless patent publishing process by
FY 2003: “We will enable customers to use the Internet to request the status of their patent and
trademark applications, to place orders and receive products, and to access patent and trademark
data when they are in a Patent and Trademark Depository Library.”6 (Emphasis added.) On
April 21, 1999, the Secretary of Commerce unveiled a new Internet database containing all text
and images for all patents dating back to 1976, and for all trademarks dating back to 1870.7
Already, the number of accessed pages of patent bibliographic and abstract text available on
PTO’s Internet web site has increased by over 61 percent, from 1,765,756 pages in FY 1997 to
2,850,141 pages in FY 1998.

PTO continues to print the Official Gazette while also making its contents available on its
Internet web site. PTO Notices, which are included in the Gazette, are already available online,8




       6
           http://www.uspto.gov/web/menu/npr/npr.htm, Reinvention Goal number 4.
       7
           http://www.uspto.gov.

       8
           http://www.uspto.gov/web/offices/com/sol/og/index.html.

                                                     14
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

and as stated above, the full text and images of all patents is now available.9 Over the past three
fiscal years, PTO has paid GPO an average of $1.5 million annually to print the Gazette.

We raised the possibility of publishing the Gazette on the Internet with several PTO officials.
They agreed that when PTO becomes completely automated, it will have less need for hard
copies of the Gazette, and so too should the intellectual property community. However, they
expressed concerns that they do not know the extent to which the community uses the Gazette
today and would need to conduct a survey before deciding whether to discontinue printing the
publication. One official stated that the risk of not circulating hard copies of the Gazette is to
deny the publication to those who do not have Internet access, including some of the Patent and
Trademark Depository Libraries (PTDL). That may be true at this time, but PTO is already
taking steps to improve the PTDLs’ technological capabilities. PTO’s FY 1999 Corporate Plan
includes funding to grant Internet access to patent and trademark databases at all PTDLs.
Furthermore, the number of subscriptions to the Gazette has declined 29 percent over the past
five years, from 2,775 in FY 1993 to 1,964 in FY 1998.

PTO, through its contractors, also produces a microfilm containing copies of all patents
published for distribution to the PTDLs. A survey of users at the PTDLs was beyond the scope
of this audit, so we do not have an opinion on the extent of use of the microfilm. However, for
the same reasons cited above, we believe there may be a declining need for PTO to continue to
make copies of patents available on microfilm. Technological advances and funding initiatives
are providing alternatives to help the patent community achieve greater access to patent
documents.

OPP also prints copies of every patent included in each weekly issue. OPP’s typical print order
contains 1 grant copy for the patent owner, 21 complete sets for overseas distribution, 2 sets for
PTO’s Patent Public Search Room, and unspecified amounts for subscription and advanced
order copies. Additional sets of patents are printed primarily for the benefit of international
exchange of patent documents. Officials at PTO’s Office of Information Dissemination
informed us that members of the World Intellectual Property Organization have reached a
significant agreement: Beginning in 2000, PTO may begin to provide electronic copies of
published patents to its foreign counterparts that have traditionally accepted only printed copies
of patents. This is an additional reason why PTO should reduce the number of printed patents.

PTO officials agree that PTO should be able to achieve the Reinvention Goal, since a
considerable number of products and services are already available online. But the Goal itself is
vaguely stated, and PTO has not announced specific plans to implement it. By the end of FY
2003, PTO should be able to electronically publish all patent-related products on the Internet,
including all elements of the Official Gazette. As PTO continues to become more automated


       9
           http://www.uspto.gov/web/menu/search.html.

                                                   15
U.S. Department of Commerce                                                 Audit Report BTD-10996
Office of Inspector General                                                         September 1999

and its products and services become more accessible via the Internet, there might be less
interest in receiving printed copies. In addition, extra copies of patents can be produced more
efficiently directly from the Internet site and other electronic media. PTO should initiate surveys
of its customers to determine which of its printed products can be eliminated to reduce printing
costs.

B.     Services provided by GPO as contracting agent
       could be performed more efficiently by PTO

GPO functions as a contracting agent for OPP for the procurement of its printing services, but
does not provide any procurement or contracting services that PTO cannot perform in-house.
We concluded that PTO possesses the necessary expertise to procure these services, and would
be better positioned to manage the printing operations if it did not have to communicate with the
contractor through GPO. Since FY 1992, OPP has paid $1,384,293, or an average of $230,072
annually, in “handling fees” to GPO.

Title 44 requires government agencies to procure printing services through GPO, unless a
waiver is granted by the Congressional Joint Committee on Printing. Title 44, section 504 states
that “the Joint Committee on Printing may permit the Public Printer to authorize an executive
department...to purchase direct for its use such printing...as the Government Printing Office is
not able to execute or as may be more economically or in the better interest of the Government if
executed elsewhere.” According to OPP officials, PTO received a waiver in the 1970s to
independently engage and oversee a private printer, but the Joint Committee revoked the waiver
three years after granting it. Recently PTO included another waiver request as part of a revision
to its spending authorization, but the request was not included in the authorization.

Every OPP official we interviewed stated they would rather OPP procure and manage its own
printing contract. OPP officials contend that GPO’s involvement has complicated
communications with the printing contractor and hindered their ability to more efficiently
manage the printing operations. Under the GPO’s contract with the printing contractor, all
disputes pertaining to whether an item or operation may or may not be charged, or pertaining to
how a charge should be applied, are decided by GPO’s contracting officer. Oversight of the
printing contract is further complicated by the lack of a memorandum of understanding between
GPO and OPP. Hence, OPP personnel lack the authority to communicate directly with company
officials on contractual and financial matters.

OPP officials asked GPO contracting officials to explain what services GPO provides to justify
the 6 percent handling fee GPO adds to every invoice from the printing contractor before it
forwards the invoice to OPP. According to them, GPO did not sufficiently explain what
services it provides, or identify any services for which GPO was uniquely qualified to offer, to
justify the handling fees. We reviewed correspondence between OPP and GPO officials during
fiscal years 1997 and 1998, including the list of services GPO provides OPP. The list contained

                                                16
U.S. Department of Commerce                                                 Audit Report BTD-10996
Office of Inspector General                                                         September 1999

20 items, including activities such as preparing specifications and solicitations, maintaining an
automated bid list system, receiving and evaluating proposals, and awarding contracts. PTO
procurement officials whom we subsequently interviewed stated that they could perform the
same function at PTO, without additional staff, and were very confident that they could serve
OPP’s needs. PTO’s Office of Procurement already oversees dozens of information technology
contracts with outside vendors.

In short, we concluded that PTO already has the in-house expertise to perform these services at
no cost beyond what is already incurred to manage existing contracts. PTO should pursue a
waiver from the Joint Committee on Printing to independently solicit and manage its own
printing contract, or continue to pursue legislation if needed.

C.     OPP and GPO did not adequately review printer’s
       claims resulting from print tape delivery problems

Poor communication and inadequate analysis by GPO and OPP, as well as the lack of
involvement of OPP’s onsite representative, resulted in GPO and OPP approving a contract
modification claim by the printing contractor for reimbursement of additional expenses without
adequately substantiating its claims. We concluded that GPO and OPP paid the printing
contractor $218,903 without sufficient knowledge of the impact of late deliveries of magnetic
tapes by the database contractor on the printing contractor’s operations. In fact, OPP paid the
invoice in December 1998 despite (1) the unfulfilled request by GPO for a specific breakdown
of the printing contractor’s costs, (2) GPO’s not providing OPP with the opportunity to review
the printing contractor’s calculations to justify its claim, (3) last-minute objections by OPP’s
onsite quality assurance specialist, (4) concerns by a PTO procurement official, and (5) our
suggestion that PTO request another review of the contractor’s claims. PTO should first have
ensured that it was satisfied with the rationale and validity of the printing contractor’s claim.

In September 1998, the printing contractor submitted a modification claim to be reimbursed
retroactively for additional costs it incurred as a result of OPP’s and the database contractor’s
inability to adhere to the production schedule. The printing contractor prepared its claim using
surcharges it negotiated with GPO. GPO, having already obtained OPP’s consent on the
surcharges, formally approved the claim and forwarded the printing contractor’s invoice to OPP
for payment.

According to GPO’s contracting officer, the claim included overtime and other expenses such as
equipment downtime, inefficiencies, lost sales, and disruptive operations. He informed us that
GPO sought a breakdown of these costs but was never able to obtain the pricing and costing
data it was seeking to evaluate the claim. Negotiations between GPO and the printing contractor
led to an agreement that the contractor assess a surcharge based on the percentage of patents
delivered on each tape. But GPO apparently did not give OPP the opportunity to review all of
the documentation submitted by the contractor which was used to calculate the surcharges. We

                                               17
U.S. Department of Commerce                                                 Audit Report BTD-10996
Office of Inspector General                                                         September 1999

determined that OPP personnel did not review that documentation before it paid the invoice. In
addition, we found that OPP officials were unaware that the contractor was seeking
reimbursement for overtime, maintenance and overhead costs. Before we showed them the
contractor’s original request letter, OPP officials assumed that the claim was for overtime
charges only. The contracting officer stated that GPO would not have proceeded if OPP
seriously disagreed with the surcharges.

We also found that OPP headquarters staff did not involve the onsite quality control specialist in
key discussions with GPO and the printing contractor. The specialist, who should be in the best
position to assess whatever problems the contractor was experiencing, did not know that the
claim was being processed until he was asked by OPP headquarters staff to review it for
accuracy and sign accordingly, as he is required to do for all invoices. After reviewing the
invoice, the specialist raised several concerns to OPP managers and us about the contractor’s
workload, its production capacity, the amount of overtime work needed, and whether additional
overhead charges were allowable. It’s unclear why he was excluded from knowing about the
claim, but his concerns may have been justified. OPP should take steps to ensure that its onsite
representative is actively involved in the oversight and processing of contractor claims.

We discussed OPP’s options with PTO procurement officials, who also raised their concerns
with OPP officials. We advised them that OPP should seek a legal opinion prior to paying the
printing contractor’s invoice. As we were reviewing the circumstances surrounding the claim,
OPP officials met with GPO representatives to request another review of the claim. They
informed us that GPO was satisfied with the surcharges it negotiated with the printing contractor
and did not want to review the claim. Therefore, OPP was left with little choice but to pay the
invoice. As we completed the audit, the printing contractor had submitted another invoice,
estimated at over $231,000, for additional expenses to be incurred through April 1999. PTO
should more diligently pursue these issues with GPO to ensure a sound basis for the claims and
any future contract modifications.

D.     Recommendations

We recommend that the Acting Assistant Secretary of Commerce and Acting Commissioner of
Patents and Trademarks take the following actions:




                                               18
U.S. Department of Commerce                                                    Audit Report BTD-10996
Office of Inspector General                                                            September 1999

1.     By the end of FY 2003, disseminate all patent-related products, including all elements of
       the Official Gazette, on the Internet. PTO should also initiate customer surveys to
       determine which printed patent products can be eliminated to reduce costs when PTO
       fully implements a paperless patent dissemination process.

2.     Consider pursuing a waiver from the Joint Committee on Printing, or the necessary
       legislation, to independently solicit and efficiently manage its own printing contract.

3.     Request GPO to review the basis for NPC’s future claims of expenses incurred as a result
       of late patent tape deliveries.

4.     Increase the role of the onsite quality assurance specialist in the oversight of the database
       and printing contractors.

E.     PTO Response to Draft Report and OIG Analysis

In its reply to our draft report, PTO agreed to, or has taken action consistent with, all of our
recommendations.

Recommendation #1:

By the end of FY 2003, disseminate all patent-related products, including all elements of the
Official Gazette, on the Internet. PTO should also initiate customer surveys to determine which
printed patent products can be eliminated to reduce costs when PTO fully implements a
paperless patent dissemination process.

PTO Response:

The PTO welcomes this suggestion and will initiate a survey of its OG subscribers. HR 1907
also includes a provision that allows for electronic publishing. This, coupled with the survey,
should allow the PTO to move quickly towards a more efficient distribution of patent
information.

OIG Comments:

While we concur with PTO’s response to our recommendation, we urge PTO to consider
specific measures to meet the recommendation without regard to the prospects for passage of
HR 1907, in case it does not become law.




                                                 19
U.S. Department of Commerce                                                  Audit Report BTD-10996
Office of Inspector General                                                          September 1999

Recommendation #2:

Pursue a waiver from the Joint Committee on Printing, or the necessary legislation, to
independently solicit and manage its own printing contract.

PTO Response:

The PTO would more than welcome on opportunity to manage its own printing contracts. It will
pursue this in all venues; however, this may be a difficult goal to achieve in view of the political
ramifications. Again, HR1907 may hold the key to allowing the PTO to independently solicit
and manage its own printing contract.

OIG Comments:

While we concur with PTO’s response to our recommendation, we urge PTO to consider
specific measures to meet the recommendation without regard to the prospects for passage of
HR 1907, in case it does not become law. Based on the response, we made a minor change to
this recommendation.

Recommendation #3:

Request GPO to review the basis for NPC’s future claims of expenses incurred as a result of
late patent tape deliveries.

PTO Response:

The PTO will make every effort to assure GPO’s diligence when handling claims by NPC.
However, under the new process, multiple tape deliveries are no longer feasible. Since the entire
issue is being built at one time, one tape is now being delivered to the printing contractor.

OIG Comments:

We concur with PTO’s response to the recommendation.

Recommendation #4:

Increase the role of the onsite quality assurance specialist in the oversight of the database and
printing contractors.




                                                20
U.S. Department of Commerce                                                 Audit Report BTD-10996
Office of Inspector General                                                         September 1999

PTO Response:

The lack of involvement of the onsite quality assurance specialist in recent dealings with GPO
and NPC was an oversight by OPP management and will be corrected. Steps will be taken to
assure that the onsite quality assurance specialist has a significant role in the oversight of the
two contractors. His concerns will be given new weight and follow-up measures implemented at
his suggestion.

OIG Comments:

We concur with PTO’s response to the recommendation.




                                               21
